                                                                                                 Report No. 04-041
                                                                                                  September 2004


                                   Processing of an Appeal of a Material Supervisory
                                   Determination
                                   Results of Audit
Purpose of Audit
                                   We determined that DSC did not always follow appropriate procedures in
                                   upgrading the Bank’s examination rating and in processing the appeal of the
On March 21, 1995, the
                                   Bank’s rating. Specifically, in deciding to upgrade an examination component
Federal Deposit Insurance
Corporation’s (FDIC) Board         rating, the DSC Area Office considered a planned transaction that was executed
of Directors adopted the           by the Bank after issuance of the examination report. Consequently, DSC relied
Guidelines for Appealing           on financial data that did not represent the Bank’s actual financial condition and
Supervisory Determinations         operations as of the date of the examination.
(Guidelines) to establish an
intra-agency independent           With respect to the appeal process, DSC’s appeal review panel:
appellate process for the
review of material supervisory     •   Expanded the scope of the Bank’s appeal to include an additional
determinations, as required by         examination component rating after the Area Office had submitted its
Section 309(a) of the Riegle           response to the appeal to the review panel. As a result, the DSC Area Office
Community Development and              did not have the opportunity to prepare an analysis of the additional
Regulatory Improvement Act             examination component for review and consideration before the upgrades
of 1994. The FDIC’s Division           occurred.
of Supervision and Consumer        •   Considered a prospective transaction in granting the bank’s appeal, relying on
Protection (DSC) makes these           information that did not accurately represent the bank’s financial condition
determinations, such as                during the timeframe covered by the examination.
examination ratings and            •   Did not obtain additional information that may have been relevant in
violations of a statute or             determining the merits of the appeal, risking a decision based on incomplete
regulation, in the course of           information.
examining and supervising          •   Did not fully coordinate with the State regulatory authority during the appeal
FDIC-insured financial                 process to ensure that the State’s views were fully considered.
institutions. If institutions
cannot resolve disputes            Further, DSC’s regional office terminated a corrective action against the Bank
regarding DSC supervisory          after the appeal was granted even though Bank management had not fully
determinations with on-site
                                   complied with the corrective action terms.
examiners or a DSC regional
office, the institution may file
                                   Recommendations and Management Response
an appeal with the Director,
DSC. The Director appoints
                                   DSC management did not concur with two of our recommendations addressing
an appeal review panel to
                                   consideration of subsequent events when determining examination ratings and the
review the case and make a
                                   termination of corrective actions. Since this report focused on only one bank
recommendation to the
Director.                          examination, the OIG plans to include these concerns in the scope of future audits
                                   that may provide a more comprehensive analysis. DSC management generally
The overall objective of the       agreed with and has taken action to address the remaining recommendation to
audit was to review the            establish procedures requiring that the appeal review panel notify regional offices
allegations associated with a      and state banking authorities when the scope of an appeal is expanded.
Hotline complaint received by
the FDIC Office of Inspector       The findings related to the consideration of future events in processing bank
General (OIG) regarding an         appeals, the lack of independent analysis by DSC’s appeal review panel, and
FDIC-supervised bank (Bank).       coordination with the state banking authority had been similarly addressed in a
The complainant questioned         prior OIG audit report. FDIC management has since taken action to address these
the examination rating process     issues, and this report did not include additional recommendations on these issues.
and associated supervisory
appeal of the Bank’s safety        Given the extensive amount of privileged material in this report, the OIG
and soundness examination          does not intend to make the report available to the public.
rating.
